@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-487

KEVIN W. CULP, MARLOW DAVIS, FREDDIE REED-
DAVIS, DOUGLAS W. ZYLSTRA, JOHN S. KOLLER,
STEVE STEVENSON, PAUL HESLIN, MARLIN
MANGELS, JEANELLE WESTROM, SECOND
AMENDMENT FOUNDATION, INC., ILLINOIS CARRY
AND ILLINOIS STATE RIFLE ASSOCIATION,

Petitioners,

Vv.
KWAME RAOUL, in his Official Capacity as Attorney
General of the State of Illinois, BRENDAN F. KELLY,
in his Official Capacity as Acting Director of the Illinois
State Police, and JESSICA TRAME, as Bureau Chief of
the Illinois State Police Firearms Services Bureau,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID G. SIGALE
LAW FIRM OF DAVID G. SIGALE, P.C.
430 West Roosevelt Road
Wheaton, IL 60187
630.452.4547
dsigale@sigalelaw.com

Subscribed and sworn to before me this 24th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LS Qudraw- ‘
My Commission Expires Nov 24, 2020 ©

Notary Public Affiant

 

39387
SERVICE LIST

Sarah Ann Hunger

Office of the Attorney General
100 West Randolph Street

12" Floor

Chicago, IL 60601
312-814-5202
shunger@atg.state.il.us
